APPENDIX

1a
APPENDIX A

United States Court of Appeals
For the Eighth Circuit
No. 19-2058
Chad Richardson, Individually, and as Parents and
Next Friends of L; Tonya Richardson, Individually,
and as Parents and Next Friends of L
Plaintiffs - Appellants
v.
Omaha School District; Jacob Sherwood,
Superintendent; Amanda Green, Principal; Dawn
Dillon, Teacher
Defendants - Appellees
-----------------------------Council of Parent Attorneys and Advocates, Inc.
Amicus on Behalf of Appellant(s)
Appeal from United States District Court
for the Western District of Arkansas – Harrison
Submitted: March 11, 2020
Filed: April 27, 2020
Before GRUENDER, ARNOLD, and SHEPHERD,
Circuit Judges.
GRUENDER, Circuit Judge

2a
Chad and Tonya Richardson (collectively, “the
Richardsons”) appeal the district court’s 1 grant of
Omaha School District’s motion to dismiss in part and
motion for summary judgment. We affirm.
I.
The Richardsons filed an administrative complaint
against the school district with the Arkansas
Department of Education under the Individuals with
Disabilities Education Act (“IDEA”), 20 U.S.C. § 1400
et seq. The Richardsons claimed that their child, “L,”
was denied his right to a free appropriate public
education (“FAPE”).
See 20 U.S.C. § 1401(9).
Specifically, they alleged that the school district
(1) failed to conduct necessary evaluations of L;
(2) failed to develop and implement an individualized
education plan (“IEP”) for L; (3) failed to ensure that
L was not bullied by peers and teachers; and (4) failed
to educate L in the least restrictive environment
possible. On April 14, 2017, the hearing officer found
in favor of the Richardsons on their first two
allegations but found in favor of the school district on
the Richardsons’ third and fourth allegations.
The Richardsons subsequently filed a complaint in
the United States District Court for the Western
District of Arkansas. In Count One, they sought an
award of attorneys’ fees as the prevailing party of the
administrative-level IDEA hearing on their first two
allegations. See 20 U.S.C. § 1415(i)(3)(B)–(C). The
1

The Honorable Timothy L. Brooks, United States District
Judge for the Western District of Arkansas.

3a
school district filed a motion to dismiss Count One,
and the district court granted the motion. 2
Counts Two and Three of the complaint alleged
discrimination against L in violation of section 504 of
the Rehabilitation Act, 29 U.S.C. § 794, and Title II of
the Americans with Disabilities Act (“ADA”), 42 U.S.C.
§ § 12131–12165. The school district filed a motion for
summary judgment as to those counts, and the district
court granted the motion. The Richardsons appeal.
II.
A.
The Richardsons first argue that the district court
erred in granting the school district’s motion to
dismiss Count One because the district court
determined the claim for attorneys’ fees was time
barred. We review de novo the district court’s
dismissal of the Richardsons’ claim under Rule
12(b)(6) of the Federal Rules of Civil Procedure.
Minter v. Bartruff, 939 F.3d 925, 926 (8th Cir. 2019).
To survive a motion to dismiss under Rule 12(b)(6), a
complaint must include “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). “A court may
dismiss a claim under Rule 12(b)(6) as barred by the
statute of limitations if the complaint itself establishes
that the claim is time- barred.” Humphrey v. Eureka
Gardens Pub. Facility Bd., 891 F.3d 1079, 1081 (8th
2

In their motion, the school district also moved to dismiss
Counts Four through Nine of the complaint, which the district
court granted. The Richardsons do not appeal that ruling.

4a
Cir. 2018). We also review de novo “the district court’s
decision to borrow a particular state statute of
limitations.” Birmingham v. Omaha Sch. Dist., 220
F.3d 850, 854 (8th Cir. 2000).
The IDEA includes a default ninety-day statute of
limitations for merits actions after the administrative
decision if the relevant state has no explicit time
limitation, 20 U.S.C. § 1415(i)(2)(B), but it does not
include a statute of limitations for a prevailing party
to file a cause of action for attorneys’ fees, see
§ 1415(i)(3). The parties dispute what statute of
limitations applies. “When a federal law has no
statute of limitations, courts may borrow the most
closely analogous state statute of limitations, unless
doing so would frustrate the policy embodied in the
federal law.” Birmingham, 220 F.3d at 854. “We have
not previously determined what state statute is most
analogous in this situation . . . .” Brittany O. v.
Bentonville Sch. Dist., 683 F. App’x 556, 557–58 (8th
Cir. 2017) (per curiam) (declining to reach the issue).
The district court borrowed the ninety-day statute
of limitations for merits actions of the administrative
decision from Arkansas Code section 6-41-216(g), a
provision of the Children with Disabilities Act, see
Ark. Code § 6-41-201, Arkansas’s statutory framework
for IDEA compliance. See Ark. Code § 6-41-202. If the
ninety-day statute of limitations applies, the
Richardsons do not contest that the district court
properly dismissed their claims.
The Richardsons argue instead that we should
borrow a different statute of limitations. They first

5a
point to the four-year statute of limitations in 28
U.S.C. § 1658(a). That statute provides a default fouryear statute of limitations for “civil action[s] arising
under an Act of Congress” passed after § 1658 was
enacted in December 1990. The Richardsons concede
that they did not raise this argument before the
district court.
Even if the Richardsons did not waive this
argument, but see Cromeans v. Morgan Keegan & Co.,
859 F.3d 558, 568 n.5 (8th Cir. 2017), it nevertheless
fails. As the Richardsons concede, the IDEA provided
for a prevailing parent’s right to attorneys’ fees in
1986, years before § 1658 was enacted.
See
Handicapped Children’s Protection Act of 1986 § 2,
Pub. L. No. 99-372, 100 Stat. 796. Thus, § 1658’s
default four-year statute of limitations does not apply.
The Richardsons argue that this reading leads to
absurd results because the IDEA did not provide a
prevailing school district with a cause of action for
attorneys’ fees until 2004. In other words, school
districts would benefit from the four-year default
when seeking an award for attorneys’ fees, but parents
would not benefit from the same default. Be that as it
may, the text of § 1658 is clear. See D.G. ex rel.
LaNisha T. v. New Caney Indep. Sch. Dist., 806 F.3d
310, 319 (5th Cir. 2015) (“If the cause of action for
attorneys’ fees was created after December 1, 1990,
the answer would be four years. . . . But . . . the cause
of action for attorney’s fees under the IDEA was first
created in 1986.” (internal quotation marks and
brackets omitted)).

6a
Next, the Richardsons argue we should borrow
Arkansas’s three-year statute of limitations for
personal injury actions. See Ark. Code § 16-56-105.
This argument is not without support. Both the Ninth
and Eleventh Circuits have borrowed similar, yearslong statutes of limitations for a prevailing party’s
attorneys’ fees claim under the IDEA. See Meridian
Joint Sch. Dist. No. 2. v. D.A., 792 F.3d 1054, 1064 (9th
Cir. 2015); Zipperer ex rel. Zipperer v. Sch. Bd. of
Seminole Cty., 111 F.3d 847, 852 & n.9 (11th Cir.
1997).
The Seventh Circuit explained the difficulty in
identifying an analogous statute of limitations: “an
action for attorneys’ fees presents a unique problem in
that it may arguably be characterized as either an
independent cause of action . . . or as ancillary to the
judicial review of the administrative decision.” Powers
v. Ind. Dep’t of Educ., Div. of Special Educ., 61 F.3d
552, 555 (7th Cir. 1995). The Eleventh Circuit noted
this difficulty and reasoned that the IDEA “provides
two distinguishable causes of action”: one for the
appeal of a substantive administrative decision and
“an independent claim for attorneys’ fees.” Zipperer,
111 F.3d at 851. It rejected the argument that a claim
for attorneys’ fees “is analogous to the appeal of an
administrative hearing” and applied a four-year
statute of limitations provided for “actions founded on
statutory liability.” Id. at 850–51. It reasoned that a
longer period would “encourage the involvement of
parents, as represented by attorneys, in securing
appropriate public educations for their children.” Id.

7a
at 852. It also reasoned that “the resolution of claims
for attorneys’ fees is less urgent.” Id. at 851.
Following the Eleventh Circuit’s reasoning, the
Ninth Circuit concluded that “a request for attorneys’
fees under the IDEA is more analogous to an
independent claim than an ancillary proceeding.”
Meridian Joint Sch. Dist. No. 2, 792 F.3d at 1063–64.
It based its conclusion on the fact that the hearing
officer may not award the attorneys’ fees. Id. at 1064.
It noted also that “the adoption of the state law
limitations period for judicial review of administrative
agency decisions” might mean that the party who
prevailed at the administrative hearing would have to
determine whether to file an action for attorneys’ fees
before the party that lost at the administrative
hearing decided whether to seek judicial review of the
merits of the decision. Id. It therefore looked to a
three-year statute of limitations for statutory liability
actions and a two-year statute of limitations for
personal injury actions, declining to decide which
applied because it determined that both statutes of
limitations were met. Id. at 1064 n.9.
By contrast, the Seventh Circuit determined that an
action for attorneys’ fees is a claim ancillary to the
underlying dispute. Powers, 61 F.3d at 556. It relied
on one of its previous decisions, which noted that “[i]n
awarding attorneys’ fees, the district court must
review not only proceedings in its own court but also
proceedings in a state administrative environment,
and that a return to such a quagmire months after
adjudication of the merits would result in a needless
expenditure of judicial energy.” Id. (alteration in

8a
original and internal quotation marks omitted). It
thus looked for a statute of limitations with “some
relevance to the administration of the IDEA itself” and
ultimately applied the state’s thirty-day limitations
period for seeking judicial review of administrative
decisions in special education matters. Id. at 556–58.
The Sixth Circuit agreed with the Seventh Circuit,
reasoning that because the only reason a prevailing
parent would have “entree to the court is the failure to
recover fees incurred in the administrative
proceeding, the statutory authorization for the court
to award attorney fees . . . must, in this situation, be
an authorization for the court to award attorney fees
in the administrative proceeding itself.” King ex rel.
King v. Floyd Cty. Bd. of Educ., 228 F.3d 622, 625–26
(6th Cir. 2000). The Sixth Circuit explained further,
“[i]t is difficult for us to conceive of a legislature
intentionally authorizing the filing of a fee application
up to five years after termination of the proceeding to
which the application relates.” Id. at 626. It applied
the state’s thirty-day statute of limitations period for
an appeal from an administrative order. Id. at 624,
627.
We are persuaded by the reasoning in the Sixth and
Seventh Circuit decisions.
As the D.C. Circuit
reasoned when addressing a different question, “a
prevailing party’s fee request [is] part of the same
‘action’ as the underlying educational dispute.”
Kaseman v. District of Columbia, 444 F.3d 637, 641
(D.C. Cir. 2006). It explained that “[a] fee request
is . . . not a direct appeal of a decision made by the
agency at the administrative hearing, as it does not

9a
call into question the child’s evaluation or placement.”
Id. at 642. It continued, “[y]et the parent’s entitlement
to fees arises out of the same controversy and depends
entirely on the administrative hearing for its
existence.” Id. In other words, the fee proceeding is
ancillary and inherently related to the underlying
dispute.
Following this logic, we agree with the district
court’s decision to borrow the ninety-day statute of
limitations for merits actions from Arkansas Code
section 6-41-216(g), Arkansas’s statutory framework
for IDEA compliance, because the claim for attorneys’
fees is ancillary to judicial review of the
administrative decision. See C.M. ex rel. J.M. v. Bd. of
Educ. of Henderson Cty., 241 F.3d 374, 380 (4th Cir.
2001) (“Logic virtually compels the conclusion that a
state special education statute, specifically enacted to
comply with the IDEA . . . constitutes the state statute
most analogous to the IDEA.”). Doing so does not
frustrate the policy embedded in the federal law, see
Birmingham, 220 F.3d at 854, particularly in our
circuit, where we have held that the statute of
limitations period for a prevailing party seeking
attorneys’ fees does not begin to run “until the 90-day
period [expires] for an aggrieved party to challenge the
IDEA administrative decision by filing a complaint in
court.” Brittany O., 683 F. App’x at 558. This means
that the Ninth Circuit’s concern that the prevailing
party would have to determine whether to file an
action for attorneys’ fees before knowing whether the
losing party would seek judicial review of the

10a
administrative decision is likely not an issue in our
circuit.
Further, as the Sixth and Seventh Circuits
reasoned, when attorneys’ fees are at issue, parents of
the aggrieved student have already hired a lawyer, so
the shorter period does “not run the risk of hurting
vulnerable unrepresented parents.” King, 228 F.3d at
627; Powers, 61 F.3d at 558. The parents, school
district, and attorneys have an interest “in the
expeditious resolution” of the attorneys’ fees issue.
Dell v. Bd. of Educ., Twp. High Sch. Dist. 113, 32 F.3d
1053, 1063 (7th Cir. 1994). “Moreover, by the end of
the administrative proceedings and any subsequent
judicial review, the parties ought to have a good idea
of the extent and quality of representation, and longterm deferral of the issue simply serves no salutary
purpose.” Id. at 1063–64.
The district court thus did not err in applying the
ninety-day statute of limitations, and Count One was
properly dismissed because the Richardsons’ district
court complaint was filed after the ninety-day limit. 3
3

The Richardsons argue that our decision in Birmingham
supports their position. 220 F.3d at 850. In that case, we applied
Arkansas’s three-year personal injury statute of limitations to a
merits action after an adverse decision in an IDEA hearing. Id.
at 856. We reasoned that a three-year statute of limitations is
consistent with IDEA policies but that a thirty-day period was
not. Id. at 855–56. Since that time, Congress amended the IDEA
to provide a default ninety-day period for merits actions of an
adverse decision, Individuals with Disabilities Education
Improvement Act of 2004, Pub. L. No. 108-446, 118 Stat. 2647,
undercutting our reasoning that a shorter period is inconsistent

11a
B.
Second, the Richardsons argue the district court
erred in granting the school district’s motion for
summary judgment. We review a grant of summary
judgment “de novo, viewing the record in the light
most favorable to the nonmoving party and drawing
all reasonable inferences in that party’s favor.”
Chambers v. Pennycook, 641 F.3d 898, 904 (8th Cir.
2011). Courts must grant summary judgment if “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Counts Two and Three of the Richardsons’
complaint are raised under section 504 of the
Rehabilitation Act, 29 U.S.C. § 794, and Title II of the
ADA, 42 U.S.C. § 12131–12165. “Where alleged ADA
and § 504 violations are based on educational services
for disabled children, the plaintiff must prove that
school officials acted in bad faith or with gross
misjudgment.” Birmingham, 220 F.3d at 856.
“In order to establish bad faith or gross
misjudgment, a plaintiff must show that the
defendant’s conduct departed substantially from
accepted professional judgment, practice or standards
so as to demonstrate that the persons responsible
actually did not base the decision on such a judgment.”
B.M. ex rel. Miller v. S. Callaway R-II Sch. Dist., 732
F.3d 882, 887 (8th Cir. 2013) (internal quotation
with the IDEA.
And Birmingham did not consider the
appropriate statute of limitations for a claim for attorneys’ fees,
nor did it consider Arkansas’s Children with Disabilities Act.

12a
marks and brackets omitted). Bad faith or gross
misjudgment requires more than “mere noncompliance with the applicable federal statutes.” Id.
The non-compliance “must deviate so substantially
from accepted professional judgment, practice, or
standards as to demonstrate that the defendant acted
with wrongful intent.” Id.
In its motion for summary judgment, the school
district argued that there is no genuine issue of
material fact about whether it acted in bad faith or
with gross misjudgment with respect to the
Richardsons’ claim that L was the victim of peer and
teacher bullying. The Richardsons argued before the
district court that the school district failed to meet its
initial burden of proof for summary judgment under
Rule 56. They contended in part that Counts Two and
Three were also based on the school district’s failure
to reevaluate L comprehensively and to provide an
IEP in addition to their claims that L was subject to
peer and teacher bullying. They pointed out that the
school district’s motion only addressed the bullying
arguments, not the other bases they claim to have
alleged in Counts Two and Three.
The district court found that the school district had
met its initial burden, and we agree. The moving
party “bears the initial responsibility of informing the
district court of the basis for its motion[] and
identifying those portions of the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
which it believes demonstrate the absence of a genuine
issue of material fact.” Celotex Corp. v. Catrett, 477

13a
U.S. 317, 323 (1986) (internal quotation marks
omitted). But Rule 56 contains no express or implied
requirement “that the moving party support its motion
with affidavits or other similar materials negating the
opponent’s claim.” Id.
In its statement of undisputed facts in support of its
summary judgment motion, the school district stated
that the factual allegations underlying Counts Two
and Three “are indistinct from the factual allegations
regarding bullying that [the Richardsons] pursued at
the Hearing.” It explained that the hearing officer
ultimately rejected the arguments and concluded that
the school district complied with the IDEA with
respect to the allegations of peer and teacher bullying.
It explained further that the Richardsons had
“disclosed in discovery no evidence to establish what
are accepted professional practices or standards
applicable to educators’ investigations of or responses
to alleged bullying,” nor did they provide evidence that
the school district substantially departed from such
standards. In its brief in support of its motion for
summary judgment, the school district argued that it
would be “legally untenable” to conclude that the
school district acted in bad faith or with gross
misjudgment when a hearing officer concluded that
they acted in a manner that fully complied with the
IDEA.
The Richardsons emphasize on appeal, as they did
before the district court, that the school district’s
motion said nothing about their claims regarding the
failure to reevaluate L and to provide an IEP, meaning
the school district did not meet its burden under Rule

14a
56. They highlight the fact that the district court
considered these claims in its analysis of Counts Two
and Three.
But the district court assumed, “despite what the
Complaint may focus on,” that those claims were
included as part of Counts Two and Three. Reviewing
de novo, we are not obligated to adopt such an
assumption, and we refuse to do so. The complaint
does not support the Richardsons’ position that Counts
Two and Three are based on an alleged failure to
reevaluate L or an alleged failure to provide an IEP.
The only hint of these theories is passing statements
that were not pleaded as the factual basis for the legal
claim and are insufficient to meet our pleading
standards. See Adams v. Am. Family Mut. Ins., 813
F.3d 1151, 1154 (8th Cir. 2016) (“A theory of liability
that is not alleged or even suggested in the complaint
would not put a defendant on fair notice and should be
dismissed.”); see also Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009).
“[A] district court considering a
defendant’s motion for summary judgment does not
err by disregarding a theory of liability asserted in the
plaintiff’s response that was not pleaded as required
by the applicable pleading standard.” Hoffman v. L &
M Arts, 838 F.3d 568, 576 (5th Cir. 2016); see also
Katsev v. Coleman, 530 F.2d 176, 179–80 (8th Cir.
1976) (explaining that the district court was not
required to consider a new legal theory raised at the
summary judgment stage that was not included in the
complaint and that the claim could not be asserted on
appeal). We thus conclude that these alternative
theories of liability under section 504 and the ADA

15a
were not adequately pleaded, so the district court need
not have addressed them, and we do not do so now.
The Richardsons nevertheless argue that even if the
school district met its burden, there is a genuine
dispute of material fact with respect to whether the
school district acted in bad faith or with gross
misjudgment such that the district court should not
have granted the motion for summary judgment. But
their brief on appeal cites little, if any, evidence about
bullying, instead focusing on their failure to
reevaluate and to provide an IEP claims. “We cannot
tell whether the district court erred in a ruling if [the
plaintiff] does not direct us to a place in the record
where we can find it, and so we consider only those
contentions that include appropriate citations.”
Singer v. Harris, 897 F.3d 970, 980 (8th Cir. 2018)
(alteration in original).
Although they make nearly no argument on appeal
that there is a genuine dispute of material fact about
whether L was denied FAPE due to bullying, a review
of the record confirms the district court’s decision. The
statement of facts in opposition to the motion for
summary judgment that the Richardsons submitted to
the district court includes no facts about bullying. It
does not even include the words bully or bullying.
Further, the Richardsons do not contest that all the
facts about their bullying claims were presented at the
administrative hearing. At that hearing, the hearing
officer considered evidence about four incidents of
alleged bullying. The first incident involved an
allegation that a peer was bullying L. When the school

16a
district administrators learned of the event, they
called the Richardsons to retrieve L and informed the
Richardsons that a teacher had disciplined the child at
fault. The second incident involved L reporting that
he felt bullied when another student told him to put
his name on a class paper. The school administration
informed the relevant teacher of the incident. The
third incident involved an allegation that L’s
keyboarding teacher told L to stop moving in his seat
when he was experiencing tics. The teacher admitted
to L’s father that she had told L to stop moving and
that she did not know he experienced tics because of
Autism Spectrum Disorder. The fourth incident
involved allegations that L was bullied in a class
where the teacher was nonresponsive to his requests
for help, instead telling him to sit in a bean bag chair.
The school district administration investigated the
situation. The hearing officer concluded that only one
incident might constitute bullying and that the school
district did not deny L FAPE based on the alleged
bullying incidents.
We agree with the district court that, when viewed
in the light most favorable to the Richardsons, none of
the evidence of bullying creates a genuine dispute of
material fact about whether the school district acted
in bad faith or with gross misjudgment, as required by
both section 504 and the ADA. See B.M. ex rel. Miller,
732 F.3d at 887 (explaining that § 504 and the ADA do
not create general tort liability for educational
malpractice and that statutory noncompliance must
“deviate so substantially from accepted professional
judgment, practice, or standards as to demonstrate

17a
that the defendant acted with wrongful intent”). The
district court therefore properly granted summary
judgment on Counts Two and Three.
III.
For the foregoing reasons, we affirm.

18a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HARRISON DIVISION
CHAD AND TONYA
RICHARDSON,
Individually, and as
Parents and Next
Friends of L.,
Plaintiffs,
v.
OMAHA SCHOOL
DISTRICT,

)
)
)
)
)
)
)
)
)
)
)
)

3:17-CV-03111

Defendant.

MEMORANDUM OPINION AND ORDER
Now pending before the Court are Defendant
Omaha School District’s (“the District”) Motion for
Summary Judgment (Doc. 36), Statement of Facts
(Doc. 37), and Brief in Support (Doc. 38); Plaintiffs
Chad and Tonya Richardson’s Response in Opposition
(Doc. 41) and Statement of Facts (Doc. 42); and the
District’s Reply (Doc. 47). For the reasons explained
below, the Motion is GRANTED.

19a
I.

BACKGROUND

The Richardsons, individually and on behalf of their
child, L., filed a due process complaint on November
29, 2016, before the Arkansas Department of
Education, concerning claims brought under the
Individuals with Disabilities Education Act (“IDEA”),
20 U.S.C. § 1400, et seq. The Richardsons alleged in
their due process complaint that L., while attending
school in the District, was denied the right to a free,
appropriate public education (“FAPE”). The parties
participated in a due process hearing before a hearing
officer appointed by the Arkansas Department of
Education, and the hearing officer issued his final
decision on April 14, 2017.
On July 13, 2017, the Richardsons appealed the
hearing officer’s decision to this Court in Case No.
3:17-CV-3053. The hearing officer had found in their
favor on some of their claims, but in favor of the
District on other claims. In particular, the hearing
officer concluded that the “District denied [L] FAPE
between November 29, 2014 and November 29, 2016
by failing to comprehensively reevaluate [L], as well
as failing to provide IEPs [“Individualized Education
Program”] reasonably calculated to enable [L] to make
progress appropriate in light of his specific
circumstances.” (Doc. 1-2 at 51). The District was
ordered to evaluate L. within the next 30 days “for [the]
purpose of obtaining a comprehensive understanding
of [L’s] academic, social and behavioral deficits” and
then “reconvene [L’s] IPE team to develop and update
[L’s] IEP based on the information received from the
updated evaluations (regardless of whether [L] is able

20a
to return to school or whether he needs homebound
services).” Id. at 51–52.
The Richardsons lost before the hearing officer on
their claims that peer-bullying and teacher-bullying of
L. denied him FAPE under the IDEA. See id. at 43.
Of the four incidents of bullying raised during the
hearing, the hearing officer determined that only one
of the incidents actually qualified as bullying. He
concluded that, “[r]egardless, all incidents were
promptly and thoroughly investigated.” Id. at 47. The
hearing officer then made a finding that the incidents
described as “bullying”—and the District’s response to
those incidents—did not violate the IDEA and “d[id]
not constitute a violation of FAPE.” Id. at 48.
This Court ultimately dismissed Case No. 3:17-CV3053 without prejudice because the Richardsons never
served the Complaint. See Doc. 7, Case No. 3:17-CV3053. Then, on December 4, 2017, the Richardsons
filed the instant lawsuit and served it. Eventually, the
District and the other defendants who had been
named in the Complaint filed a motion for partial
dismissal of some of the Richardsons’ claims. The
Court granted the motion in a Memorandum Opinion
and Order issued on March 22, 2018 (Doc. 23).
Count I of the Complaint was dismissed with
prejudice, due to the running of the statute of
limitations. 1 Counts IV–IX were dismissed without
1

Count I was a request by the Richardsons for attorney’s fees
for prevailing at the administrative level on the issue of L. being
denied FAPE due to the District’s failure to comprehensively
evaluate him and provide reasonable IEPs. The Court dismissed

21a
prejudice under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim. This left for later
resolution Counts II and III—which are now the
subject of the District’s Motion for Summary
Judgment.
Count II asserts that the District discriminated
against L. in violation of § 504 of the Rehabilitation
Act, 29 U.S.C. § 701, et seq. (“§ 504”). The Richardsons
contend that the District was aware that L. was being
bullied by other children and by at least one of his
teachers due to his disabilities, but was deliberately
indifferent to the bullying and took no steps to protect
L. Count III is similar to Count II in that it alleges that
the District discriminated against L. in violation of the
Americans with Disabilities Act (“ADA”), 42 U.S.C.
§ 12131–12165. The Richardsons maintain that L. did
not receive the same services, programs, and activities
that children in the District without disabilities
received, due to the fact that L. was subjected to a
hostile and bullying environment at school.
Section 504 and the ADA contain exceedingly
similar prohibitions on disability discrimination.
Section 504 states that “[n]o otherwise qualified
individual with a disability in the United States ...
the request for fees as time-barred, noting that “the parties here
are in agreement that a party aggrieved by a hearing officer’s
findings has a maximum of 90 days to appeal to the district court,
or else the findings are deemed final.” (Doc. 23 at 7). Since the
Court concluded that the Richardsons brought their claim for
attorney’s fees 144 days after the hearing officer’s decision
became final, the claim was filed too late and was dismissed with
prejudice on that basis. See id. at 11.

22a
shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the
benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance,” 29 U.S.C. § 794.
The ADA’s
corresponding language states that “no qualified
individual with a disability shall, by reason of such
disability, be excluded from participation in or be
denied the benefits of the services, programs, or
activities of a public entity, or be subjected to
discrimination by any such entity,” 42 U.S.C. § 12132.
On summary judgment, the District argues that the
Richardsons have produced no evidence from which a
jury could reasonably conclude that the District and
its staff are liable for violations of the Rehabilitation
Act or the ADA by deviating from accepted
professional practices or standards in their response
to allegations of bullying.
The District further
contends that there is no evidence to suggest the
District acted in bad faith with respect to complaints
of bullying or that it engaged in intentional
wrongdoing in handling the bullying claims. In
making these arguments, the District relies primarily
on the administrative hearing officer’s decision, which
considered and rejected the Richardsons’ claims that
L. was denied FAPE due to bullying and/or the
District’s lack of an appropriate response to bullying.
On summary judgment, the Richardsons focus not
on bullying, but on the hearing officer’s conclusion that
the District failed to conduct proper educational
assessments and provide IEPs that were suited to L’s
needs. The Richardsons’ briefing makes clear that

23a
they believe Counts II and III do not have much, if
anything, to do with bullying. In fact, no facts or legal
argument about bullying are contained in their brief
and statement of undisputed facts. 2
Though the Richardsons agree that the District has
referred in its opening brief to the facts surrounding
the bullying allegations that were developed in the
administrative hearing, they think that mere
references to the hearing officer’s opinion are not
enough to meet the District’s initial burden under
Rule 56. Instead, they argue that the District was
obligated on summary judgment to cite to specific
“actions taken by the school and its employees, as well
as an explanation for the alleged reasonableness of
those actions,” (Doc. 41 at 5), in order to trigger a
fulsome response.
To summarize, then, the
Richardsons maintain they are not obligated to
provide any facts to support their claims on Counts II
and III, but if they are wrong and a response is
required, the only facts that truly matter are those
that show the District’s failure to evaluate L. for
services and provide him with an appropriate IEP.

2

Also attached to their brief are complete transcripts of the
depositions of Tonya and Chad Richardson. However, the
Richardsons’ brief and statement of facts in support of their
response to summary judgment fail to cite the Court to any
portion of either deposition that refers to bullying. Indeed, the
brief cites to no portion of either parent’s testimony at all. See Doc.
41 at 10 (making only the following oblique reference to the
Richardsons’ depositions: “see generally Ex. B (Deposition of
Tonya Richardson); Ex. C (Deposition of Chad Richardson)”).

24a
The Court will take up the parties’ arguments on
summary judgment below.
II.

LEGAL STANDARD

A.

Summary Judgment

The legal standard for summary judgment is well
established. Under Federal Rule of Civil Procedure
56(a), “[t]he court shall grant summary judgment if
the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law.” The Court must review
the facts in the light most favorable to the opposing
party and give that party the benefit of any inferences
that can be drawn from those facts. Canada v. Union
Elec. Co., 135 F.3d 1211, 1212–13 (8th Cir. 1997). The
moving party bears the burden of proving the absence
of a genuine dispute of material fact and that it is
entitled to judgment as a matter of law. See Fed. R.
Civ. P. 56(c); Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 586–87 (1986); Nat’l Bank
of Commerce of El Dorado, Ark. v. Dow Chem. Co., 165
F.3d 602 (8th Cir. 1999).
The movant’s initial burden on summary judgment
is “far from stringent, for it is sufficient if the movant
points out that the record does not contain a genuine
issue of material fact and identifies that part of the
record which bears out his assertion.” Handeen v.
Lemaire, 112 F.3d 1339, 1346 (8th Cir. 1997) (internal
quotation marks and alterations omitted). But “[e]ven
when the non-movant bears the burden of proof at trial,
simply filing a summary judgment motion does not
immediately compel the party opposing the motion to

25a
come forward with evidence demonstrating material
issues of fact as to every element of its case.” Id.
(internal quotation marks omitted).
B.

Elements of § 504 and ADA Claims

“To prevail on a claim under § 504, a plaintiff must
demonstrate that: (1) he is a qualified individual with
a disability; (2) he was denied the benefits of a
program or activity of a public entity which receives
federal funds; and (3) he was discriminated against
based on his disability.” Gorman v. Bartch, 152 F.3d
907, 911 (8th Cir. 1998) (footnote omitted) (citing 29
U.S.C. § 794(a)). Section 504 requires that “‘a person’s
disability serve as the sole impetus for a defendant’s
adverse action against the plaintiff,’” Wojewski v.
Rapid City Reg’l Hosp., Inc., 450 F.3d 338, 344 (8th Cir.
2006) (emphasis in original). “Although the ADA has
no federal funding requirement, it is otherwise similar
in substance to the Rehabilitation Act, and cases
interpreting
either
are
applicable
and
interchangeable.” Wojewski, 450 F.3d at 344 (internal
quotation marks omitted); see also Hoekstra by &
through Hoekstra v. lndep. Sch. Dist. No. 283, 103
F.3d 624, 626 (8th Cir. 1996) (“[E]nforcement remedies,
procedures and rights under Title II of the ADA are
the same as under § 504[.]”).
When both § 504 and ADA claims are asserted
against a defendant based on a failure to provide
educational services for a disabled child, “the plaintiff
must prove that school officials acted in bad faith or
with gross misjudgment.” Birmingham v. Omaha Sch.
Dist., 220 F.3d 850, 856 (8th Cir. 2000). In order to

26a
establish bad faith or gross misjudgment, a plaintiff
must show that the defendant’s conduct “depart[ed]
substantially from ‘accepted professional judgment,
practice or standards [so] as to demonstrate that the
person[s] responsible actually did not base the
decision on such a judgment.”‘ B.M. ex rel. Miller v. S.
Callaway R-11 Sch. Dist., 732 F.3d 882, 887 (8th Cir.
2013) (internal citations omitted; alterations in
original). As the Eighth Circuit has explained:
Because the ADA and § 504 do not create
general tort liability for educational
malpractice, bad faith or gross
misjudgment requires something more
than mere non-compliance with the
applicable federal statutes.
The
defendant’s statutory non-compliance
must deviate so substantially from
accepted professional judgment, practice,
or standards as to demonstrate that the
defendant acted with wrongful intent.
Id. (internal citations omitted and cleaned up).
Further, to recover compensatory damages under
§ 504 or the ADA, a plaintiff must establish
discriminatory intent. Meagley v. City of Little Rock,
639 F.3d 384, 389 (8th Cir. 2011) (holding
discriminatory intent may be inferred by deliberate
indifference to the fact a given action will result in
violation of federally protected rights). And even
though neither § 504 nor the ADA contains an
exhaustion requirement, if a plaintiff brings a claim
under either statute seeking relief that is available

27a
under the IDEA, the plaintiff must first exhaust the
administrative remedies available under the IDEA
before filing suit in court. B.M. ex rel. Miller, 732 F.3d
at 886 n.3.
III. DISCUSSION
A.

The District’s Initial Burden of
Proof Under Rule 56

A threshold issue to address is the Richardsons’
argument that the District failed to meet its initial
burden of proof under Rule 56, such that the
Richardsons were not even obligated to respond to the
motion with their own interpretation of the facts and
their own legal arguments to justify denying the
request for summary judgment. See Doc. 41 at 5–6.
The only claims left in the case, Counts II and III,
do appear to turn on the Richardsons’ assertion that L.
was bullied by other students and perhaps some
teachers, and that the bullying and the District’s lack
of appropriate response constituted disability
discrimination in violation of § 504 and the ADA.
However, the Richardsons maintain on summary
judgment that there is more to their § 504 and ADA
discrimination claims than just the bullying
allegations. At the same time, the Richardsons do not
dispute the District’s statement that all facts about
bullying and the District’s response to bullying were
raised during the administrative hearing, and no new
facts about bullying have been revealed since then.
The Richardsons do not discuss the alleged bullying
incidents in their brief, and they do not attempt to add
new facts about bullying to the summary judgment

28a
record, other than the facts that are recited in the
hearing officer’s opinion. The hearing officer made
specific findings about bullying in his opinion,
concluding that those allegations did not amount to a
violation of the IDEA or a deprivation of FAPE.
Presumably, the Richardsons disagree with that
conclusion, but they offer no facts and no legal
argument to counter it.
The District begins its brief in support of summary
judgment by observing that the facts about bullying
that exist in the administrative record are the only
facts about bullying that support Counts II and III.
The District then goes on to explain why those same
facts are insufficient to establish a violation of § 504 or
the ADA as a matter of law. All of that is enough to
meet the District’s initial burden on summary
judgment. In citing to the facts on bullying that exist
in the administrative record, the District has made an
adequate “showing that the materials cited do not
establish the absence or presence of a genuine dispute,
or that an adverse party cannot produce admissible
evidence to support the fact.”
Fed. R. Civ. P.
56(c)(1)(B).
B.

The Nature of the Discrimination
Claims in Counts II and III

Another threshold issue is whether the disability
discrimination alleged in Counts II and III of the
Complaint refers only to bullying, or refers to bullying
and something else. The Richardsons criticize the
District’s “laser-focus on bullying” and contend that
the District has ignored their other proof supporting

29a
Counts II and III, namely, the District’s “innumerable
failures in providing an education to L. as required by
law.” (Doc. 41 at 8). It appears the Richardsons have
assumed-without explanation-that these educational
failures amount to violations of § 504 and the ADA.
But the Complaint at Counts II and III certainly
makes claims about bullying.
Paragraph 62,
describing Count II, states: “The frequency and extent
of the disability-based abuse L. suffered at the hands
of his peers and teachers denied L. full participation
and benefits of his education.” (Doc. 1 at 15 (emphasis
added)). Paragraph 64, also describing Count II,
identifies the source of the disability discrimination
alleged as peer-to-peer and teacher-to-student
bullying: “L. was being discriminated against based on
his disability, by his peers and teachers; yet the school
district was deliberately indifferent to the
discrimination.” Id. at 16 (emphasis added). Moreover,
although Count II mentions the fact that L. “required
language and other related services to address his
disabilities,” the Complaint does not claim that L.
suffered disability-based discrimination as a result of
the District’s failure to provide those services; instead,
the Complaint explains that the reason why “L. failed
to benefit educationally and his skills actually
regressed” was “because of the abuse, torment and
harassment by his peers which increased as he
progressed through school.” Id. at 14 (emphasis added).
Turning to Count III, which charges disability
discrimination under the ADA, Paragraph 74 of the
Complaint states: “The District has failed their
responsibilities under Title II to provide services,

30a
programs, and activities in a full and equal manner to
L. and free from abuse, oppression, discrimination,
and exclusion as a result of his disabilities.” Id. at 18.
Then, Paragraph 75 states: ‘The Third-Party
Defendant District has further failed their
responsibilities under Title II to provide services,
programs, and activities in a full and equal manner to
children with disabilities and specifically L., as
described herein by subjecting L to an oppressive,
inappropriate, hostile, and abusive educational
environment solely based on his disability.” Id.
(emphasis added).
The Richardsons contend that (despite what the
Complaint may focus on) the District’s failure to
comprehensively evaluate L. for services and provide
him with IEPs reasonably calculated to enable him to
make educational progress was what actually violated
§ 504 and the ADA. Therefore, in ruling on the
District’s motion for summary judgment, the Court
will assume that the bullying claims and the “failure
to educate” claims explained in the hearing officer’s
opinion form twin bases for the substantive law
violations asserted in Counts II and III.
With all of that said, what the Court will not
consider is the Richardsons’ contention that the
instant claims against the District arise out of the
District’s “failure to develop or otherwise implement
an appropriate IEP as directed by the hearing officer”
after the hearing officer’s decision was published. (Doc.
41 at 8). According to the Richardsons, these new
failures on the part of the District include not
implementing appropriate IEPs after the hearing

31a
officer directed the District to do so, see id. at 8–9, and
not providing L. with homebound services,
appropriate homework, benchmark testing, or subjectby­ subject grade level assessments after the time
period considered by the hearing officer in the context
of the administrative hearing, see id. at 9–10.
Even though neither § 504 nor the ADA contains an
exhaustion requirement, the law is clear that “a party
must exhaust the administrative remedies available
under the IDEA before bringing a claim under a
different statute seeking relief that is also available
under the IDEA.” B.M. ex rel. Miller, 732 F.3d at 886
(citing J.B. ex rel. Bailey v. Avilla R­ XIII Sch. Dist.,
721 F.3d 588, 592 (8th Cir. 2013)); see also 20 U.S.C.
1415(1) (“Nothing in this chapter shall be construed to
restrict or limit the rights, procedures, and remedies
available under the Constitution, the Americans with
Disabilities Act of 1990, title V of the Rehabilitation
Act of 1973, or other Federal laws protecting the rights
of children with disabilities, except that before the
filing of a civil action under such laws seeking relief
that is also available under this subchapter, the
procedures under subsections (f) and (g) shall be
exhausted to the same extent as would be required had
the action been brought under this subchapter.”).
The Richardsons’ post-hearing claims about
violations of § 504 and the ADA must be exhausted in
a separate administrative hearing before the
Arkansas Department of Education before those
claims may be brought to federal court.
The
Richardsons advised the Court in another document
filed of record (Doc. 52, Plaintiffs’ Reply in Support of

32a
Motion for Leave to Amend Complaint) that they had
already submitted a second due process complaint
(Doc. 48-1) to the Arkansas Department of Education,
listing all the District’s alleged failures to comply with
the hearing officer’s order after the decision was
issued. 3 The Richardsons explained that they believed
they were required to file this second due process
complaint “to preserve their rights.” (Doc. 52 at 3).
The Court agrees.
According to the Supreme Court’s decision in Fry v.
Napoleon Community Schools, 137 S. Ct. 743, 755
(2017), when “the gravamen of a complaint seeks
redress for a school’s failure to provide a FAPE,” even
if the claims are brought under a statute other than
the IDEA (such as § 504 of the Rehabilitation Act or
the ADA), the claims must first be exhausted in an
administrative hearing before being brought to court,
as per Section 1415(I) of the IDEA. The Fry Court
pointed out that “a plaintiff’s initial pursuit of the
IDEA’s administrative remedies can serve as evidence
that the gravamen of her later suit is the denial of a
FAPE, even though that does not appear on the face of
her complaint.” Id. at 758. So, it follows that a
plaintiff
cannot escape § 1415(I) merely by
bringing her suit under a statute other
than the IDEA-as when, for example, the
3

In fact, all the facts listed in the Richardson’s response to
summary judgment that cover the time period after the hearing
officer’s decision appear, verbatim, in the second due process
complaint. See Doc. 48-1 at 6–7.

33a
plaintiffs in Smith 4 claimed that a
school’s failure to provide a FAPE also
violated the Rehabilitation Act. Rather,
that plaintiff must first submit her case
to an IDEA hearing officer, experienced
in addressing exactly the issues she
raises. But if, in a suit brought under a
different statute, the remedy sought is
not for the denial of a FAPE, then
exhaustion of the IDEA’s procedures is
not required.
Id. at 754.
In the case at bar, the new, post-hearing claims
asserted by the Richardsons are not distinctly§ 504 or
ADA claims, but instead bear a close resemblance to
their IDEA claims brought in the first administrative
hearing, in that both their first and second due process
complaints raise issues about the adequacy of L.’s
IEPs and the District’s evaluation process for the
provision of special education services. Moreover, the
second due process complaint flows logically from the
first one, as the second complaint alleges the District
failed to do all the things the hearing officer ordered it
to do after the first complaint was resolved.
To discern whether “the gravamen” of the
Richardsons’ new claim—though maintained under
statutes other than the IDEA—require that they be
brought before an IDEA hearing officer before being

4

Smith v. Robinson, 468 U.S. 992 (1984).

34a
filed in court, the following passage from Fry is
instructive:
One clue to whether the gravamen of a
complaint against a school concerns the
denial of a FAPE, or instead addresses
disability-based discrimination, can
come from asking a pair of hypothetical
questions. First, could the plaintiff have
brought essentially the same claim if the
alleged conduct had occurred at a public
facility that was not a school—say, a
public theater or library? And second,
could an adult at the school—say, an
employee or visitor—have pressed
essentially the same grievance? When
the answer to those questions is yes, a
complaint that does not expressly allege
the denial of a FAPE is also unlikely to
be truly about that subject; after all, in
those other situations there is no FAPE
obligation and yet the same basic suit
could go forward. But when the answer
is no, then the complaint probably does
concern a FAPE, even if it does not
explicitly say so; for the FAPE
requirement is all that explains why only
a child in the school setting (not an adult
in that setting or a child in some other)
has a viable claim.
Id. at 756 (emphasis in original).

35a
Under the instant facts, the hypothetical questions
above must be answered in the negative. That further
convinces the Court that the Richardsons’ posthearing claims must first be exhausted before the
Arkansas Department of Education before being heard
by this Court. For all these reasons, the Court finds
that Counts II and III of the Complaint are premised
on facts concerning: (1) the alleged bullying of L. and
the District’s response to such bullying and (2) the
District’s alleged failure to comprehensively evaluate
L. and provide reasonable IEPs during the time period
that was considered by the administrative hearing
officer with respect to the first due process complaint.
1.

Bullying

In the District’s summary judgment brief, it cites to
the hearing officer’s summary of the incidents of
bullying claimed by the Richardsons, as well as the
District’s response or lack of response to the bullying.
The District then argues that these facts are
insufficient to establish any genuine, material
question of liability for violations of § 504 or the ADA.
As the Court observed previously, citing to the hearing
officer’s record of the facts was sufficient to meet the
District’s initial burden on Rule 56. The burden then
shifted to the Richardsons to “discard the shielding
cloak of formal allegations and meet proof with proof’
as to the bullying claims. Conseco Life Ins. Co. v.
Williams, 620 F.3d 902, 909 (8th Cir. 2010) (quotation
and citation omitted).
Before examining the Richardsons’ proof, the Court
turns to the District’s argument about the preclusive

36a
effect the Court ought to give to the hearing officer’s
findings about bullying. The District argues that since
the hearing officer found that the bullying allegations
did not amount to a violation of the IDEA and a denial
of FAPE, the Court should give those findings
preclusive effect with respect to the claims in Counts
II and III, since the hearing officer’s decision was not
successfully appealed by the Richardsons and is now
to be considered “final.”
Though the District’s
argument is an interesting one, there is no need for the
Court to take it up here. The Richardsons’ response to
summary judgment—or lack thereof—provides
enough basis for the Court to find that they failed to
meet their burden under Rule 56 to establish the
existence of any genuine, material dispute of fact
regarding bullying that would demonstrate that
“school officials acted in bad faith or with gross
misjudgment.” Birmingham, 220 F.3d at 856.
In particular, the Richardsons’ statement of facts
(Doc. 42) contains no facts about bullying or facts that
purport to show that L. suffered a hostile and abusive
environment at school. Tonya Richardson’s affidavit
(Doc. 42-1) states nothing about bullying.
Her
affidavit is confined to facts showing how the District
allegedly failed in its educational obligations to L.
after the hearing officer issued his opinion. Id. Mrs.
Richardson’s ninety­three-page deposition (Doc. 42-2)
and Mr. Chad Richardson’s fifty-one-page deposition
(Doc. 42-3) are attached to the brief in opposition to
summary judgment, but the brief itself does not refer
the Court to any portion of either deposition. As the
Seventh Circuit observed, “[j]udges are not like pigs,

37a
hunting for truffles buried in briefs,” United States v.
Dunkel, 927 F.2d 955, 956 (7th Cir. 1991) (per curiam),
and they “need not excavate masses of papers in
search of revealing tidbits—not only because the rules
of procedure place the burden on the litigants, but also
because their time is scarce,” Northwestern Nat’l Ins.
Co. v. Baltes, 15 F.3d 660, 662–63 (7th Cir. 1994).
Another item attached to the brief is an expert
report by Dr. Howard M. Knoff (Doc. 42-4), which is
also the subject of a Daubert motion filed by the
District (Doc. 49). Without deciding the admissibility
of Dr. Knoff’s opinions or ruling on the Daubert motion,
the Court notes that the report is sixty-three pages
long, and, again, no portion of it is discussed in the
Richardsons’ brief. In fact, the only reference to the
report appears in the last sentence of the brief, just
before the “Conclusion” section, as follows: “See
generally Ex. D (Expert Report), at 48–57 (describing
the specific and pervasive failures of the District in
this case, as well as the proper practices and
standards).” (Doc. 41 at 10). Any facts about bullying
cited in Dr. Knoff’s report are lifted, verbatim, from
the hearing officer’s opinion. As Dr. Knoff was not an
eyewitness to any of the bullying incidents and is not
qualified to offer legal opinions, the report itself
cannot serve as a proxy for the Richardson’s lack of
response on summary judgment.
Left only with the facts about bullying as recounted
by the hearing officer, the Court finds that those facts,
when taken in the light most favorable to the
Richardsons, do not establish a violation of § 504 or
the ADA as a matter of law. As previously stated, to

38a
prove § 504 and ADA claims based on educational
services for a disabled child, there must be evidence
that “school officials acted in bad faith or with gross
misjudgment.” Birmingham v. Omaha Sch. Dist., 220
F.3d 850, 856 (8th Cir. 2000). In order to avoid
summary judgment, the Richardsons must raise a
genuine, material question of fact that shows that the
District’s conduct in response to allegations of bullying
“depart[ed] substantially from ‘accepted professional
judgment, practice or standards [so] as to demonstrate
that the person[s] responsible actually did not base the
decision on such a judgment.”‘ B.M. ex rel. Miller v. S.
Callaway R-11 Sch. Dist., 732 F.3d 882, 887 (8th Cir.
2013) (internal citations omitted; alterations in
original).
The record reveals there were four incidents of
alleged bullying. (Doc. 1-2 at 44–45). They are
summarized by the hearing officer in his opinion as
follows:
(1)

“[L.] was bullied by another peer. The incident
upset [L.], and Hicks [L.’s science teacher]
called Parents to request that they pick up [L.]
from school. When Parents arrived to pick up
[L.], Hicks told Parent (father) that another
Student had picked on [L.] and that another
teacher, Robinson, had disciplined the child at
fault. Hicks assured Parent (father) that steps
would be taken to ensure that there were no
other similar incidents.”

(2)

“[D]uring the first week of October, 2016, [L.]
told Hicks that he felt bullied by another

39a
Student. When asked details about the incident,
[L.] told Hicks that another peer had told [L.]
that he needed to put his name on a class paper.
Hicks took action and informed the appropriate
teacher of the incident.”
(3)

“Parents assert that [L.] was bullied in
keyboarding class by his keyboarding teacher,
Perry. There was testimony that [L.] was
experiencing tics in class and Perry instructed
[L.] to stop moving in his seat. Parent (father)
testified that he went to the school on October 3,
2016 to address this issue with Perry. In
discussing the issue with Parent (father), Perry
admitted that she had told [L.] to stop moving
in his seat. She explained that she did not know
that [L.] had a diagnosis of Autism Spectrum
Disorder.”

(4)

“Parents alleged that [L.] was being picked on
in Dillon’s class and that Dillon was nonresponsive to [L.’s] requests for assistance.
Parents also alleged that Dillon required [L.] to
sit on a bean bag chair in her classroom when
[L.] continued to tell Dillon that he was being
bullied.”

Id. at 45.
The Court, having reviewed all the facts
surrounding these incidents, as set forth in detail by
the hearing officer, finds that none of these incidents
demonstrates bad faith or gross misjudgment by
District staff or administrators. None of the incidents,
even assuming they happened exactly as the hearing

40a
officer recounted, create a jury question as to a
possible violation of § 504 or the ADA.
The
Richardsons elected on summary judgment to rest
only on the facts on bullying as recounted by the
hearing officer, and those facts simply do not form a
basis for liability as to either Count II or Count III.
2.

Failure to Comprehensively Evaluate L
and Provide Reasonable IEPs

The Richardsons also argue that the District
violated § 504 and the ADA when it failed to provide
L. with adequate IEPs, educational services,
evaluations,
and programming suited to his
capabilities and in line with his disabilities. The
Court views the facts surrounding these claims as
temporally limited. See Section III.B., supra. The
Court will therefore consider whether the failure to
provide adequate IEPs, educational services,
evaluation, and programming during the time period
prior to the hearing officer’s issuance of his opinion
could potentially constitute a violation of § 504 or the
ADA as a matter of law.
The Court assumes for purposes of summary
judgment that the District violated the IDEA and
failed to provide L. with FAPE, just as the hearing
officer found in his opinion. The legal question is
whether there are any facts in the summary judgment
record to show that the District did “something more”
than merely fail to comply with the IDEA. For liability
to attach under both § 504 and the ADA, “[t]he
defendant’s statutory non-compliance must deviate so
substantially from accepted professional judgment,

41a
practice, or standards as to demonstrate that the
defendant acted with wrongful intent.” B.M. ex rel.
Miller, 732 F.3d at 887.
The Richardsons contend that the facts that prove
the District’s “failure to educate, specifically a failure
to conduct necessary evaluations and to develop and
implement an appropriate IEP,” (Doc. 41 at 5), are
sufficient to create a jury question as to whether the
District violated § 504 and the ADA. The Court
disagrees. The Richardsons have pointed to no facts
in the summary judgment record that, even when
taken in the light most favorable to them, would
indicate that any District staff member or
administrator acted in bad faith or with wrongful
intent to violate the IDEA in failing to
comprehensively evaluate L. and provide IEPs
reasonably calculated to enable him to make academic
progress. The facts at most indicate the District’s
statutory non-compliance with the IDEA, which is not
the same as intentional discrimination. Ordinary
negligence on the part of educators is insufficient as a
matter of law to establish a genuine, material dispute
of fact as to a § 504 or ADA violation. Birmingham,
220 F.3d at 856 (defining the legal standard as bad
faith or gross misjudgment).
IV. CONCLUSION
For all the reasons explained herein, IT IS
ORDERED that Defendant Omaha School District’s
Motion for Summary Judgment (Doc. 36) is
GRANTED, and the case is DISMISSED WITH

42a
PREJUDICE. Judgment shall enter concurrently
with this Order.
IT IS FURTHER ORDERED that all other
pending motions are MOOT.
IT IS SO ORDERED on this 30th day of
April, 2019.
/s/Timothy L. Brooks
TIMOTHY L. BROOKS
UNITED STATES DISTRICT
JUDGE

43a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HARRISON DIVISION
CHAD AND TONYA
RICHARDSON,
Individually and As Parents and
Next Friends of L.
V.

PLAINTIFFS

CASE NO. 3:17-CV-03111

OMAHA SCHOOL DISTRICT;
JACOB SHERWOOD,
Superintendent;
AMANDA GREEN, Principal;
and DAWN DILLON, Teacher

DEFENDANTS

MEMORANDUM OPINION AND ORDER
Currently before the Court are a Motion for Partial
Dismissal (Doc. 5) and Brief in Support (Doc. 6) filed
by Defendants Omaha School District, Jacob
Sherwood, Amanda Green, and Dawn Dillon; a
Response in Opposition (Doc. 12) and Brief in Support
(Doc. 13) filed by Plaintiffs Chad and Tonya
Richardson; and Defendants’ Reply (Doc. 18). On
February 12, 2018, the Court held a hearing on the
Motion, and the parties had the opportunity to present
oral argument. For the reasons given below, the
Motion for Partial Dismissal (Doc. 5) is GRANTED.

44a
I.

BACKGROUND

This lawsuit arises from an administrative appeal
of claims made before the Arkansas Department of
Education (“ADE”) by a disabled student, “L”
(“Student”), who attended school in the Omaha School
District (“the District”). Plaintiffs filed a due process
complaint before the ADE on November 19, 2016,
alleging that the District had failed to provide Student
with a free, appropriate public education, in violation
of the Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1400, et seq. The parties
participated in a hearing before a hearing officer
appointed by the ADE, and the hearing officer issued
her Final Decision and Order on the due process
complaint on April 14, 2017. See Doc. 1-2.
On July 13, 2017, Plaintiffs filed a lawsuit in this
Court, seeking judicial review of the hearing officer’s
decision. Plaintiffs asserted a single claim in that
lawsuit, and hereafter, the Court will refer to this
earlier-filed case as “Richardson I.” See Case No. 3:17CV-3053. In Richardson I, Plaintiffs’ counsel argued
that although Student and his parents had prevailed
on some issues before the hearing officer, they had lost
on other issues. Therefore, for purposes of the
administrative appeal, Plaintiffs wished the Court to
consider them the “aggrieved party,” as that term is
defined in the IDEA. See 20 U.S.C. § 1415(i)(2)(A)
(“Any party aggrieved by the [hearing officer’s]
findings and decision . . . [has] the right to bring a civil
action with respect to the complaint.”).

45a
Plaintiffs argued in Richardson I that the hearing
officer found that the District had committed certain
wrongdoing with respect to Student’s educational
plan, and the hearing officer made the following
findings in Plaintiffs’ favor: (1) the District failed to
conduct a comprehensive evaluation of Student, (2)
the District provided Student with inappropriate
Individual Education Plans (“IEPs”) for three
consecutive years while Student was enrolled in
school, (3) Student regressed in the last two years he
was in school, (4) Student’s IEPs were not reasonably
calculated to enable him to make appropriate
progress, and (5) Student’s IEPs lacked provisions for
social skills training and social skills goals.
Despite these favorable findings, Plaintiffs
disagreed with certain other findings the hearing
officer made, which were not in their favor, including
that: (1) the District had educated Student in the least
restrictive learning environment, and (2) the District
provided an appropriate education to Student while
the administrative appeal was pending. The Court
also believes it likely that Plaintiffs disagreed with
some of the hearing officer’s key factual findings in
Richardson I, namely, that Student’s teacher, Dawn
Dillon, did not bully Student or allow bullying in her
class, and that Superintendent Jacob Sherwood and
Principal Amanda Green conducted thorough
investigations into Student’s bullying allegations.
Richardson I was ultimately dismissed because
Plaintiffs never served the District with the complaint.
The Court dismissed the case without prejudice on
November 8, 2017. The Court noted in its dismissal

46a
order that it appeared that Plaintiffs might be barred
from refiling their IDEA claim due to the running of
the statute of limitations, as Plaintiffs’ counsel had
filed Richardson I on the last day of the 90-day
deadline to appeal the hearing officer’s decision. See
Doc. 7, Case No. 3:17-CV-3053.
Nonetheless, on December 4, 2017—nearly a month
after Richardson I was dismissed—Plaintiffs filed the
instant case, which the Court will call “Richardson II.”
Richardson II is different than Richardson I, at least
in terms of the causes of action asserted and the
defendants sued. Whereas Richardson I characterized
Plaintiffs as the “aggrieved party” and requested
district court review of the hearing officer’s
substantive findings, Richardson II does not request
such review (as it is time-barred) and instead asserts
in Count I that Plaintiffs were the “prevailing party”
at the administrative level and are now entitled to
attorney fees. Richardson II names not only the
District as a Defendant, but also Jacob Sherwood, who
is the District’s Superintendent and the CEO of the
District’s Board of Education, Amanda Green, who is
Principal of Omaha Elementary School, where
Student attended, and Dawn Dillon, who was
Student’s fifth and sixth grade science teacher. In
addition, the Complaint now before the Court in
Richardson II provides more details about Student
and his educational experiences than Richardson I, as
well as eight new causes of action.
In particular, Count II of the Richardson II
Complaint alleges that the District discriminated
against Student in violation of the Rehabilitation Act,

47a
29 U.S.C. § 701, et seq. Plaintiffs believe the District
had knowledge that other children were bullying
Student because of his disabilities, but the District
took no steps to protect him. Plaintiffs therefore
accuse the District of being deliberately indifferent to
the bullying.
Count III is similar to Count II in that it alleges that
the District discriminated against Student in violation
of the Americans with Disabilities Act (“ADA”), 42
U.S.C. §§ 12131–12165, in that Student did not
receive the same services, programs, and activities
that children without disabilities received, due to the
fact that Student was subjected to a hostile and
bullying environment at school, and the District failed
to stop it.
Count IV is a 42 U.S.C. § 1983 claim based on “statecreated danger,” and is asserted against the District
and Defendants Sherwood, Green, and Dillon, in their
individual and official capacities. The “state-created
danger” described here is the bullying.
Count V is another Section 1983 claim for
“supervisory liability for participation in and
encouragement of unconstitutional misconduct by
subordinates”—another Due Process claim. See Doc. 1
at 21. This claim is asserted against Sherwood, who
has supervisory authority over all District employees,
and against Green, who has supervisory authority
over Dillon. Plaintiffs’ legal theory in Count V is that
Sherwood and Green knew, or should have known,
that their subordinates were “unconstitutionally
placing L in a place of harm where he would be

48a
subjected to ongoing, and targeted bullying and the
resulting
foreseeable
deprivations
of
L’s
Constitutional rights to a public education, to bodily
integrity, to be secure and to be left alone free from
bullying and harassment, and to substantive due
process under the Fourteenth Amendment to the
Constitution of the United States.” Id. at 22. Count V
also cites the District’s failure to investigate an
incident that took place at school on October 6, 2016,
when Student had a major seizure in Dillon’s science
class and never came back to school after that.
Plaintiffs complain that the District failed to enforce
its no-bullying policies, was deliberately indifferent to
bullying, refused to implement effective bullyingprevention strategies, and tacitly authorized bullying
in the schools through inaction.
Count VI is another Section 1983 claim, lodged only
against the District, for denial of Due Process due to
the District’s alleged failure to train and supervise its
teachers to prevent and stop bullying.
Count VII is similar to Count VI, in that Count VII
is also a Section 1983 claim lodged against the District
for having a policy, custom, or practice of failing to
respond to or prevent bullying in its schools. The
Count claims there is a persistent pattern of
inappropriate responses to bullying by the District,
but offers no specific examples of such bullying other
than Student’s.
Count VIII is for punitive damages against all
Defendants, as Plaintiffs maintain that all Defendants
committed willful, wanton, and malicious acts against

49a
Student; and Count IX is the state law tort of
intentional infliction of emotional distress, again
asserted against all Defendants.
Defendants jointly filed a Motion for Partial
Dismissal (Doc. 5), seeking to dismiss all Counts but
II and III. In addition, or perhaps in the alternative,
Defendants argue that the individual Defendants are
entitled to qualified immunity. The Motion is now ripe
for consideration.
II.

LEGAL STANDARD

To survive a motion to dismiss, a pleading must
provide “a short and plain statement of the claim that
the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
The purpose of this requirement is to “give the
defendant fair notice of what the . . . claim is and the
grounds upon which it rests.” Erickson v. Pardus, 551
U.S. 89, 93 (2007) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007)). The Court must accept as
true all factual allegations set forth in the Complaint
by the plaintiff, drawing all reasonable inferences in
the plaintiff’s favor. See Ashley Cnty., Ark. v. Pfizer,
Inc., 552 F.3d 659, 665 (8th Cir. 2009).
However, the complaint “must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Twombly, 550 U.S.
at 570). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. “A pleading
that offers ‘labels and conclusions’ or ‘a formulaic

50a
recitation of the elements of a cause of action will not
do.’ Nor does a complaint suffice if it tenders ‘naked
assertions’ devoid of ‘further factual enhancement.’”
Id. In other words, “the pleading standard Rule 8
announces does not require ‘detailed factual
allegations,’ but it demands more than an unadorned,
the-defendant-unlawfully-harmed-me accusation.” Id.
III. DISCUSSION
A.

Count I: Attorney Fees for Prevailing
at the Administrative Level

Defendants argue that Count I, in which Plaintiffs
request attorney fees for prevailing at the
administrative level, should be dismissed as timebarred. The Eighth Circuit has yet to announce a
particular deadline by which a prevailing party must
file a request for attorney fees related to work incurred
at the administrative level on an IDEA claim.
Certainly, the parties here are in agreement that a
party aggrieved by a hearing officer’s findings has a
maximum of 90 days to appeal to the district court, or
else the findings are deemed final. But how long
should the prevailing party have after the findings are
deemed final to request attorney fees from the district
court? 1 Plaintiffs argue they should have three years
to request such fees, while Defendants argue they
should have 90 days. In the absence of Eighth Circuit

1

Under the IDEA, a party is considered to have “prevailed” “if
it succeeded on any significant issue which achieved some of the
benefit it sought.” Yankton Sch. Dist. v. Schramm, 93 F.3d 1369,
1377 (8th Cir. 1996).

51a
guidance, this Court must arrive at a reasonable
decision on its own.
In the case at bar, the hearing officer’s final decision
was entered on April 14, 2017. The aggrieved party
then had 90 days to appeal the decision—or until July
13, 2017. See Brittany O v. Bentonville Sch. Dist., 683
F. App’x 556, 557 (8th Cir. 2017) (per curiam) (finding
that in Arkansas, “any party aggrieved . . . shall have
90 days from the date of the hearing officer’s decision
to bring a civil action in a court of competent
jurisdiction pursuant to the IDEA”). Plaintiffs never
successfully appealed the hearing officer’s final
decision. They filed Richardson I, but they never
served it, and it was dismissed by the Court.
Therefore, in the absence of any ongoing appeal, the
hearing officer’s decision became final as of July 13.
Defendants contend that if Plaintiffs had determined
that they did, in fact, prevail at the administrative
level, they were required to request attorney fees of
the district court no later than 90 days after the
hearing officer’s decision became final, or by October
11, 2017. Instead, Plaintiffs filed their fee request in
the instant case on December 4, 2017.
Although Defendants concede that the IDEA doesn’t
expressly state when a prevailing party must make its
request for fees, they believe the Eighth Circuit in
Brittany O v. Bentonville School District tacitly
agreed—or at least did not explicitly disagree with the
district court’s opinion in that case—that the same 90day statute of limitations that applies to filing IDEA
appeals should also apply to filing requests for
attorney fees. In Brittany O., the Eighth Circuit

52a
specifically stated that it “need not decide” the
appropriate statute of limitations applicable to a
request for attorney fees pursuant to the IDEA. 683
Fed. App’x at 558. At the same time, the Eighth
Circuit did not explicitly overrule the reasoning of the
Honorable J. Leon Holmes, United States District
Judge for the Eastern District of Arkansas, who
analyzed the issue at an earlier stage of the litigation
and came to the conclusion that a 90-day limitations
period for filing attorney fee claims was reasonable.
See Brittany O. v. Bentonville Sch. Dist., 2015 WL
284971, at *6–7 (E.D. Ark. Jan. 22, 2015).
Judge Holmes drew insight from opinions authored
by the Sixth and Seventh Circuits and found that “a
claim for attorneys’ fees arising out of a due process
hearing under the IDEA is ancillary to the
administrative action and therefore should be
governed by the state statute of limitations that
governs appeals from administrative decisions.” Id. at
*6 (citing King v. Floyd Cnty. Bd. of Educ., 228 F.3d
622, 625–26 (6th Cir. 2000); Powers v. Ind. Dep’t of
Educ., 61 F.3d 552, 556–59 (7th Cir. 1995)). Judge
Holmes reasoned that adopting plaintiff Brittany O.’s
suggested three-year statute of limitations to file an
attorney fee claim—which Plaintiffs also suggest in
the case at bar—
would create a risk of piecemeal litigation inasmuch
as, on that argument, as to the issues on which the
party to a due process hearing is aggrieved, an
action must be brought within ninety days of the
hearing officer’s decision, whereas a claim for
attorneys’ fees arising out of the same hearing could

53a
be commenced as much as three years after the
decision.
Id. at *7.
He then quoted a district court of Massachusetts
case, B.D. ex rel. Doucette v. Georgetown Public School
District, 2012 WL 4482152, at *9 (D. Mass. Sept. 27,
2012), for the following logical proposition:
“There is no good reason why the statute of
limitations for an action to recover fees that depend
upon an agency’s decision, should be longer than an
appeal of the merits of the decision itself.”
Brittany O., 2015 WL 284971, at *7 (quoting Doucette,
2012 WL 4482152, at *9). Accordingly, Judge Holmes
determined that a 90-day statute of limitations was
“ample time for the parents to prepare a claim for
attorneys’ fees and present it to the district court,”
particularly given the fact that 90 days “is specific to
claims under the IDEA” and “will avoid piecemeal
litigation and ensure that all claims related to the due
process hearing would be brought in a single action.”
Id. at *7.
This Court agrees with Judge Holmes’ reasoning as
to the appropriate limitations period for a prevailing
party to file a claim for fees, subsequent to an IDEA
administrative hearing. Simply put, it defies logic
that the time to file a claim for fees would be longer
than the time to file a substantive appeal of the
hearing officer’s decision. A claim for fees is merely
ancillary to the administrative action itself, and it
follows that, if anything, a prevailing party should be
required to file his claims for fees in less time than he

54a
did the underlying appeal—but certainly not more. As
the Court of Appeals has already approved a 90-day
limitation period for filing an underlying appeal, this
Court finds that a 90-day limitation period for filing a
claim for fees is eminently fair and reasonable, and
also promotes judicial efficiency and encourages the
swift administration of justice and the preservation of
evidence. This is because attorney fee claims cannot
be evaluated in a vacuum, but instead must be tested
for reasonableness in the context of the work
performed by the attorney at the administrative level
below. The time to file a claim for fees for prevailing
at the administrative level should correlate closely to
the time to file an appeal of the hearing officer’s final
decision, so there are no significant gaps in time
between the district court’s consideration of the merits
decision and the fee decision.
Since Plaintiffs’ claim for attorney fees in the case
at bar was brought 144 days after the hearing officer’s
decision became final, it was brought too late. Count
I is time-barred and will be dismissed with prejudice.
B.

Count IV: State-Created Danger

Count IV is a 42 U.S.C. § 1983 claim based on “statecreated danger,” against the District and Defendants
Sherwood, Green, and Dillon, in their individual and
official capacities. To prevail on a state-created
danger claim under Section 1983, a plaintiff must
demonstrate: (1) that he is a member of a limited,
precisely-definable group; (2) that the defendants’
conduct put him at significant risk of serious,
immediate, and proximate harm; (3) that the risk of

55a
harm was obvious or known to the defendants; (4) that
the defendants acted recklessly in conscious disregard
of the risk; and (5) that the defendants did so in a way
that shocks the conscience. See Avalos v. City of
Glenwood, 382 F.3d 792, 798–90 (8th Cir. 2004)
(internal citations omitted).
Here, assuming for the sake of argument that
Student qualifies under the first part of the Avalos test
as “a member of a limited, precisely definable group,”
the Complaint fails to allege any facts that would show
that any Defendant acted affirmatively and recklessly
to put Student at serious risk of harm, in a manner
that would shock the conscience.
Defendants cite to an analogous school-bullying
case out of the Third Circuit called Morrow v. Balaski,
719 F.3d 160, 164 (3d Cir. 2013). In that case, parents
of two bullied children sued the school under Section
1983 on a state-created danger theory, and the case
was dismissed because the court found that the school
did not create the danger to the students. The bully
did. See id. at 176 (finding that child bullies did not
act under authority delegated by the school or exercise
coercive power with significant encouragement from
the school; and even if the school’s response to the
bullying “may well have been . . . inadequate,” no
constitutional remedy existed). The Third Circuit
further held that a school’s “passive inaction” in the
face of bullying, either by not enforcing a no-bullying
policy or in failing to effectively stop individual
bullying, was not the same as the school committing
an affirmative act to create a danger to a student. See
id. at 179.

56a
Even if the Court were to assume the allegations in
the Complaint are true, they fail to establish facts
sufficient to show that the District or any of its
employees acted in a manner that was reckless, rather
than negligent, and that the actions shocked the
conscience. Plaintiffs maintain that Defendants knew
or should have known that “a culture of bullying
existed within the School District and specifically at
Omaha Elementary School.” (Doc. 1, p. 19). They also
charge Defendants with knowing that Student was
“the victim of daily abuse, harassment, and torment
by his classmates for years,” id. at 20, and that
teachers discouraged Student from reporting the
abuse by calling him a “tattletale” and “refusing to
take corrective action once the bullying was reported,”
id. Importantly, the specific incidents of bullying
described in the Complaint are limited to classmates
calling Student names or generally “ridicul[ing] him
and mak[ing] fun of him,” id. at 6, and a single
teacher—or perhaps more than one teacher, as the
Complaint is unclear on this point—either calling
Student a tattletale for reporting the bullying, id at 7–
8, or “forcing L to sit in a beanbag chair in the middle
of the classroom,” id. at 8. Aside from being far from
conscience-shocking, such incidents of “bullying” by
teachers and administrators are described in a vague
and conclusory manner, unsupported by actual facts.
During the Motion hearing, the Court informed
counsel for Plaintiffs that it did not appear from the
face of the Complaint that Plaintiffs had asserted any
“conscience-shocking” facts that would constitute
affirmative acts by the District or its employees. The

57a
Court then gave Plaintiffs’ counsel—or her clients,
who were present at the hearing—an opportunity to
state in open court any other facts they knew of that
would be conscience-shocking, aside from forcing
Student to sit on a beanbag chair or calling him a
tattletale. In the end, Counsel and the parties were
unable to provide any other facts. Count IV is
therefore dismissed for failure to state a claim.
C.

Count V: Supervisory Liability

Count V is a Section 1983 Due Process claim that
charges Sherwood and Green with supervisory
liability for participation in and encouragement of
unconstitutional
misconduct
by
subordinates.
Plaintiffs believe that Sherwood and Green knew, or
should have known, that their subordinates were
“unconstitutionally placing L in a place of harm where
he would be subjected to ongoing, and targeted
bullying and the resulting foreseeable deprivations of
L’s Constitutional rights to a public education, to
bodily integrity, to be secure and to be left alone free
from bullying and harassment, and to substantive due
process under the Fourteenth Amendment to the
Constitution of the United States.” (Doc. 1 at 22).
“Supervisory school officials. . . can be liable under
§ 1983 only if they are deliberately indifferent to acts
committed by a teacher that violate a student’s
constitutional rights.” Doe v. Flaherty, 623 F.3d 577,
584 (8th Cir. 2010). To establish a claim based upon a
supervisor’s deliberate indifference, a plaintiff must
show that the supervisor defendant: (1) had notice of
a pattern of unconstitutional acts of a subordinate; (2)

58a
showed deliberate indifference to those acts; (3) and
failed to take sufficient remedial action; (4) which
proximately caused injury to the plaintiff. Id. (citing
Doe v. Gooden, 214 F.3d 952, 955 (8th Cir. 2000)
(holding that deliberate indifference is a stringent
standard of fault that cannot be predicated upon mere
negligence).
In Gebser v. Lago Vista Independent School District,
the Supreme Court held that in order for a school
official tasked with reviewing complaints to be liable
under Title IX, that “official must have actual
knowledge of discrimination and fail adequately to
respond.” Gebser, 524 U.S. 274, 290–91 (1998).
The Complaint is devoid of facts that would indicate
that Sherwood, Green, or any teacher who was
subordinate to them actually bullied Student. There
are also no facts that would indicate that Sherwood
and/or Green knew of such “bullying” by teachers and
were deliberately indifferent to it. None of the acts
alleged in the Complaint to have been committed by
teachers can be construed as ones that violated
Student’s constitutional rights: the facts simply do not
rise to that level of detail or severity. Count V is
dismissed for failure to state a claim.
D.

Count VI: Failure to Train and Supervise

Count VI is another Section 1983 claim, lodged only
against the District, for denial of Due Process due to
the District’s alleged failure to train and supervise its
teachers to prevent and stop bullying. “To establish a
substantive due process violation, a plaintiff must
plausibly allege ‘both that the official’s conduct was

59a
conscience-shocking and that the official violated one
or more fundamental rights that are deeply rooted in
this Nation’s history and tradition, and implicit in the
concept of ordered liberty, such that neither liberty nor
justice would exist if they were sacrificed.’” Schmidt v.
Des Moines Pub. Sch., 655 F.3d 811, 816 (8th Cir.
2011). Defendants argue here that the facts in the
Complaint to support Count VI fail to establish that
the District’s behavior was conscience-shocking. For
the reasons stated previously, the Court agrees.
Furthermore, the elements of a failure-to-train
claim under Section 1983 require proof that: (1) the
training practices were inadequate, (2) the school was
deliberately indifferent to the rights of students, such
that the failure to train reflected a deliberate choice,
and (3) the failure to train caused the plaintiff’s
injuries. B.A.B. v. Bd. of Educ. of City of St. Louis,
Mo., 698 F.3d 1037, 1040 (8th Cir. 2012).
Along with the lack of conscience-shocking facts in
the Complaint that would implicate Defendants,
Plaintiffs have also failed to sufficiently allege facts
that would indicate that school officials were
deliberately indifferent to bullying within the schools,
or that the District deliberately chose to train its
teachers to ignore bullying. For these reasons, the
claim in Count VI is dismissed without prejudice.
E.

Count VII: Policy, Custom, or Practice

Count VII is a Section 1983 claim against the
District for having a policy, custom, or practice of
failing to respond to or prevent bullying in its schools.
“To establish the existence of a policy, custom or

60a
failure to receive, investigate, or act on complaints of
violations of constitutional rights, a plaintiff must
prove:
(1) the existence of a continuing, widespread,
persistent pattern of unconstitutional misconduct
by the governmental entity’s employees;
(2) deliberate indifference to or tacit authorization
of such conduct by the governmental entity’s
policymaking officials after notice to the officials of
that misconduct; and
(3) that plaintiff was injured by acts pursuant to
the governmental entity’s custom, i.e., that the
custom was the moving force behind the
constitutional violation.
Jane Doe A By & Through Jane Doe B v. Special Sch.
Dist. of St. Louis Cnty., 901 F.2d 642, 646 (8th Cir.
1990).
Plaintiffs fail to reference in their Complaint a
persistent pattern of inappropriate responses to
bullying. Instead, they cite only to Student’s example.
It is difficult to argue that one student’s example of
bullying, if true, would amount to a policy, custom, or
practice of the District of failing to respond to student
bullying. Plaintiffs simply assume, without providing
any facts to support their assumption, that there is a
District-wide policy or practice of ignoring bullying. In
general,
“[p]roof
of
a
single
incident
of
unconstitutional activity is not sufficient to impose
liability under Monell, unless proof of the incident
includes proof that it was caused by an existing,
unconstitutional municipal policy, which policy can be

61a
attributed to a municipal policymaker.” City of
Oklahoma City v. Tuttle, 471 U.S. 808, 823–24 (1985).
Here, Plaintiffs are unable to state facts that would
plausibly show the existence of a persistent pattern of
abuse or tacit authorization of alleged abuse. Count
VII is dismissed for failure to state a claim.
F.

Count VIII: Punitive Damages

Plaintiffs maintain that all Defendants committed
willful, wanton, and malicious acts against Student.
Exactly what those willful, wanton, and malicious acts
are is a mystery, despite the length of the 34-page
Complaint.
Plaintiffs’ claim that Defendants
intentionally or deliberately failed to take action in
response to bullying is not supported by any facts in
the Complaint and fails to meet the pleading
standards of Rule 12(b)(6), and the guidance in Iqbal
and Twombly. Count VIII is dismissed without
prejudice.
G.

Count IX: Intentional Infliction of
Emotional Distress (Outrage)

Count IX is the state law tort of intentional
infliction of emotional distress. In Arkansas, this tort
is called “outrage.” Defendants argue that no
allegations in the Complaint rise to the level of the tort
of outrage. Further, they contend that this tort claim
would be barred by sovereign immunity.
The tort contains the following four elements: (1)
the defendant intended to inflict emotional distress or
should have known that emotional distress was the
likely result of its conduct; (2) the defendant’s conduct
was extreme and outrageous, beyond all possible

62a
bounds of decency, and utterly intolerable in a
civilized community; (3) the defendant’s conduct
caused the plaintiff emotional distress; and (4) the
plaintiff’s emotional distress was so severe that no
reasonable person could be expected to endure it.
Crockett v. Essex, 341 Ark. 558, 563–64 (2000).
In the case at bar, there do not appear to be any facts
that would demonstrate intentional, extreme, or
outrageous conduct on the part of any of the
Defendants.
Further, Arkansas courts have
interpreted very narrowly what would qualify as
“outrageous” conduct that would state a valid claim.
Putting aside the sovereign immunity question, the
Court rejects Plaintiffs’ argument that the facts here
state a claim for outrage under Arkansas law. Count
IX is dismissed without prejudice.
IV. CONCLUSION
IT IS ORDERED that Defendants’ Motion for
Partial Dismissal (Doc. 5) is GRANTED. Count I is
DISMISSED WITH PREJUDICE, due to the
running of the statute of limitations, and Counts IV,
V, VI, VII, VIII, and IX are DISMISSED WITHOUT
PREJUDICE, pursuant to Rule 12(b)(6), for failure to
state a claim. Only Counts II and III remain for
resolution, and both of those Counts are brought
explicitly against Defendant Omaha School District
and no other Defendant.
Accordingly, separate
Defendants Jacob Sherwood, Amanda Green, and
Dawn Dillon are DISMISSED as parties to the action,
and the Clerk of Court is directed to terminate them
from the case.

63a
IT IS SO ORDERED on this 22nd day of March,
2018.
/s/ Timothy L. Brooks
TIMOTHY L. BROOKS
UNITED STATES DISTRICT
JUDGE

64a
APPENDIX D
STATUTES OF LIMITATIONS FOR ALL FIFTY
STATES PLUS THE DISTRICT OF COLUMBIA
AND PUERTO RICO FOR EACH APPROACH
IN THE CIRCUIT SPLIT
This Appendix lists statutes of limitations for the
administrative review approach (adopted by the Sixth,
Seventh, and Eighth Circuits) and the independent
lawsuit approach (adopted by the Ninth and Eleventh
Circuits) for all fifty states plus the District of
Columbia and Puerto Rico. For the independent
lawsuit approach, the Appendix provides the shortest
limitations period that the courts following the Ninth
or Eleventh Circuits’ approach could borrow given the
availability in many states of multiple statutes of
limitations for independent causes of action.

65a
Alabama: 30 days versus 2 years.
Administrative review approach: 30 days, Ala.
Admin. Code r. 290-8-9-.08.
Independent lawsuit approach: 2 years, Ala. Code
§ 6-2-38.
Alaska: 30 days versus 2 years.
Administrative review approach: 30 days, Alaska
Stat.
Ann.
§ 14.30.193(f)
(incorporating
id.
§ 44.62.560).
Independent lawsuit approach: 2 years, Alaska Stat.
Ann. § 09.10.070.
Arizona: 35 days versus 1 year.
Administrative review approach: 35 days, Ariz.
Admin. Code R7-2-405.
Independent lawsuit approach: 1 year, Ariz. Rev.
Stat. Ann. § 12-541.
Arkansas: 90 days versus 3 years.
Administrative review approach: 90 days, Ark. Code
Ann. § 6-41-216(g).
Independent lawsuit approach: 3 years, Ark. Code
Ann. § 16-56-105.
California: 90 days versus 2 years.
Administrative review approach: 90 days, Cal. Educ.
Code § 56505(k).
Independent lawsuit approach: 2 years, Cal. Civ.
Proc. Code § 335.1.

66a
Colorado: 90 days versus 2 years.
Administrative review approach: 90 days, 1 Colo.
Code Regs. 301-8:2220-R-6.02 (incorporating 34 C.F.R.
§ 300.516).
Independent lawsuit approach: 2 years, Colo. Rev.
Stat. Ann. § 13-80-102.
Connecticut: 45 days versus 2 years.
Administrative review approach: 45 days, Conn.
Gen. Stat. Ann. § 10-76h(d)(4) (incorporating id. § 4183(c)).
Independent lawsuit approach: 2 years, Conn. Gen.
Stat. Ann. § 52-584.
Delaware: 90 days versus 2 years.
Administrative review approach: 90 days, Del. Code
Ann. tit. 14, § 3142(a).
Independent lawsuit approach: 2 years, Del. Code
Ann. tit. 10, § 8119.
District of Columbia: 90 days versus 3 years.
Administrative review approach: 90 days, D.C. Mun.
Regs. Subt. 5-E, § 3031 (incorporating 20 U.S.C.
§ 1415(i)(2)(B)).
Independent lawsuit approach: 3 years, D.C. Code
Ann. § 12-301(8).

67a
Florida: 30 days versus 4 years.
Administrative review approach: 30 days, Fla. Stat.
Ann. § 1003.57(1)(c) (incorporating id. § 120.68(2)(a)).
Independent lawsuit approach: 4 years, Fla. Stat.
Ann. § 95.11(3).
Georgia: 90 days versus 2 years.
Administrative review approach: 90 days, Ga.
Comp. R. & Regs. 160-4-7-.12.
Independent lawsuit approach: 2 years, Ga. Code
Ann. § 9-3-33.
Hawaii: 30 days versus 2 years.
Administrative review approach: 30 days, Haw.
Code R. § 8-60-70(b).
Independent lawsuit approach: 2 years, Haw. Rev.
Stat. Ann. § 657-11; id. § 657-7.
Idaho: 42 days versus 3 years.
Administrative review approach: 42 days, Idaho
Admin. Code r. 08.02.03.109.
Independent lawsuit approach: 3 years, Idaho Code
Ann. § 5-218.
Illinois: 120 days versus 2 years.
Administrative review approach: 120 days, 105 Ill.
Comp. Stat. Ann. 5/14-8.02a(i).
Independent lawsuit approach: 2 years, 735 Ill.
Comp. Stat. Ann. 5/13-202.

68a
Indiana: 30 days versus 2 years.
Administrative review approach: 30 days, 511 Ind.
Admin. Code 7-45-9(a).
Independent lawsuit approach: 2 years, Ind. Code
Ann. § 34-11-2-4(a).
Iowa: 90 days versus 2 years.
Administrative review approach: 90 days, Iowa
Admin. Code r. 281-41.516(2).
Independent lawsuit approach: 2 years, Iowa Code
Ann. § 614.1.
Kansas: 30 days versus 2 years.
Administrative review approach: 30 days, Kan. Stat.
Ann. § 72-3418(d).
Independent lawsuit approach: 2 years, Kan. Stat.
Ann. § 60-513(a)(4).
Kentucky: 90 days versus 1 year.
Administrative review approach: 90 days, 707 Ky.
Admin. Regs. 1:340 (not providing limitations period,
so defaulting to 90 days under 20 U.S.C.
§ 1415(i)(2)(B)).
Independent lawsuit approach: 1 year, Ky. Rev. Stat.
Ann. § 413.140.

69a
Louisiana: 90 days versus 1 year.
Administrative review approach: 90 days, La.
Admin. Code tit. 28, Pt. XLIII, § 516.
Independent lawsuit approach: 1 year, La. Civ. Code
Ann. art. 3492.
Maine: 90 days versus 6 years.
Administrative review approach: 90 days, 05-071
Code Me. R. Ch. 101, § XV (incorporating 34 C.F.R.
§ 300.516).
Independent lawsuit approach: 6 years, Me. Rev.
Stat. Ann. tit. 14, § 752.
Maryland: 120 days versus 3 years.
Administrative review approach: 120 days, Md.
Code Ann., Educ. § 8-413(j).
Independent lawsuit approach: 3 years, Md. Code
Ann., Cts. & Jud. Proc. § 5-101.
Massachusetts: 90 days versus 3 years.
Administrative review approach: 603 Code Mass.
Regs. 28.08(6) (not providing limitations period, so
defaulting to 90 days under 20 U.S.C. § 1415(i)(2)(B)).
Independent lawsuit approach: 3 years, Mass. Gen.
Laws ch. 260, §§ 2A, 5B.

70a
Michigan: 90 days versus 3 years.
Administrative review approach: 90 days, Mich.
Admin. Code r. 340.1724f(4).
Independent lawsuit approach: 3 years, Mich.
Comp. Laws Ann. § 600.5805.
Minnesota: 60 days (state court) or 90 days (federal
court) versus 2 years.
Administrative review approach: 60 days (state
court) or 90 days (federal court), Minn. Stat. Ann.
§ 125A.091.
Independent lawsuit approach: 2 years, Minn. Stat.
Ann. § 541.07.
Mississippi: 90 days versus 3 years.
Administrative review approach: 90 days, Miss.
Code Ann. § 37-23-143(3).
Independent lawsuit approach: 3 years, Miss. Code
Ann. § 15-1-49.
Missouri: 45 days versus 5 years.
Administrative review approach: 45 days (state
court) or 90 days (federal court default), Mo. Ann. Stat.
§ 162.962.
Independent lawsuit approach: 5 years, Mo. Ann.
Stat. § 516.120.

71a
Montana: 90 days versus 3 years.
Administrative review approach: 90 days, Mont.
Admin. R. 10.16.3523 (incorporating 34 C.F.R.
§ 300.516).
Independent lawsuit approach: 3 years, Mont. Code
Ann. § 27-2-202(3).
Nebraska: 90 days versus 3 years.
Administrative review approach: 90 days, 92 Neb.
Admin. Code ch. 55, § 009 (subsection 009.08).
Independent lawsuit approach: 3 years, Neb. Rev.
Stat. Ann. § 25-219.
Nevada: 90 days versus 2 years.
Administrative review approach: 90 days, Nev.
Admin. Code 388.315.
Independent lawsuit approach: 2 years, Nev. Rev.
Stat. Ann. § 11.190(4).
New Hampshire: 120 days versus 3 years.
Administrative review approach: 120 days, N.H.
Rev. Stat. Ann. § 186-C:16-b.
Independent lawsuit approach: 3 years, N.H. Rev.
Stat. Ann. § 508:4.
New Jersey: 90 days versus 2 years.
Administrative review approach: 90 days, N.J.
Admin. Code § 6A:14-2.7.
Independent lawsuit approach: 2 years, N.J. Stat.
Ann. § 2A:14-2.

72a
New Mexico: 30 days versus 3 years.
Administrative review approach: 30 days, N.M.
Admin. Code 6.31.2.
Independent lawsuit approach: 3 years, N.M. Stat.
Ann. § 37-1-8.
New York: four months versus 3 years.
Administrative review approach: four months, N.Y.
Educ. Law § 4404(3).
Independent lawsuit approach: 3 years, N.Y.
C.P.L.R. § 214.
North Carolina: 30 days versus 3 years.
Administrative review approach: 30 days, N.C. Gen.
Stat. Ann. § 115C-109.9(d).
Independent lawsuit approach: 3 years, N.C. Gen.
Stat. Ann. § 1-52.
North Dakota: 90 days versus 6 years.
Administrative review approach: 90 days, N.D.
Admin. Code § 67-23-05-01 (incorporating 20 U.S.C.
§§ 1400–19).
Independent lawsuit approach: 6 years, N.D. Cent.
Code Ann. § 28-01-16.

73a
Ohio: 45 days (state court) or 90 days (federal court)
versus 2 years.
Administrative review approach: 45 days (state
court) or 90 days (federal court), Ohio Rev. Code Ann.
§ 3323.05(H).
Independent lawsuit approach: 2 years, Ohio Rev.
Code Ann. § 2305.10.
Oklahoma: 90 days versus 2 years.
Administrative review approach: 90 days, Okla.
Admin. Code § 210:15-13-1 (“incorporat[ing] by
reference all applicable federal and state laws,
regulations, and policies”).
Independent lawsuit approach: 2 years, Okla. Stat.
Ann. tit. 12, § 95.
Oregon: 90 days versus 2 years.
Administrative review approach: 90 days, Or. Rev.
Stat. Ann. § 343.175(4).
Independent lawsuit approach: 2 years, Or. Rev.
Stat. Ann. § 12.110.
Pennsylvania: 90 days versus 2 years.
Administrative review approach: 90 days, 22 Pa.
Code § 14.102 (incorporating 34 C.F.R. § 300.516).
Independent lawsuit approach: 2 years, 42 Pa. Cons.
Stat. Ann. § 5524.

74a
Puerto Rico: 30 days versus 3 years.
Administrative review approach: 30 days, P.R.S.
Admin. Código de Regulaciones § 4493(IX)(c).
Independent lawsuit approach: 3 years, P.R. Laws
Ann. tit. 31, § 5297.
Rhode Island: 30 days versus 3 years.
Administrative review approach: 30 days, 200 R.I.
Code R. § 20-30-6.8.
Independent lawsuit approach: 3 years, R.I. Gen.
Laws § 9-1-36.
South Carolina: 30 days versus 3 years.
Administrative review approach: 30 days, S.C. Code
Ann. Regs. 43-243.
Independent lawsuit approach: 3 years, S.C. Code
Ann. § 15-3-530.
South Dakota: 90 days versus 3 years.
Administrative review approach: 90 days, S.D.
Admin. R. 24:05:30:11.
Independent lawsuit approach: 3 years, S.D.
Codified Laws § 15-2-14.
Tennessee: 60 days versus 1 year.
Administrative review approach: 60 days, Tenn.
Comp. R. & Regs. 0520-01-09-.19 (incorporating Tenn.
Code Ann. § 4-5-322(b)).
Independent lawsuit approach: 1 year, Tenn. Code
Ann. § 28-3-104.

75a
Texas: 90 days versus 2 years.
Administrative review approach: 90 days, 19 Tex.
Admin. Code § 89.1185(n) (incorporating 34 C.F.R.
§ 300.516).
Independent lawsuit approach: 2 years, Tex. Civ.
Prac. & Rem. Code Ann. § 16.003(a).
Utah: 30 days versus 3 years.
Administrative review approach: 30 days, Utah
Code Ann. § 53E-7-208(4).
Independent lawsuit approach: 3 years, Utah Code
Ann. § 78B-2-305.
Vermont: 90 days versus 3 years.
Administrative review approach: 90 days, Vt. Stat.
Ann. tit. 16, § 2957(d).
Independent lawsuit approach: 3 years, Vt. Stat.
Ann. tit. 12, § 512.
Virginia: 90 days (federal court) or 180 days (state
court) versus 2 years.
Administrative review approach: 90 days (federal
court) or 180 days (state court), 8 Va. Admin. Code 2081-210.
Independent lawsuit approach: 2 years, Va. Code
Ann. §§ 8.01-243, 8.01-248.

76a
Washington: 90 days versus 2 years.
Administrative review approach: 90 days, Wash.
Admin. Code 392-172A-05115.
Independent lawsuit approach: 2 years, Wash Rev.
Code Ann. § 4.16.130.
West Virginia: 90 days versus 2 years.
Administrative review approach: 90 days, W. Va.
Code R. § 126-16 attach. ch. 11, sec. 4(N), at 115,
available at https://wvde.us/wp-content/uploads/2018/
01/Policy2419_2017.pdf.
Independent lawsuit approach: 2 years, W. Va. Code
Ann. § 55-2-12.
Wisconsin: 45 days versus 3 years.
Administrative review approach: 45 days, Wis. Stat.
Ann. § 115.80(7).
Independent lawsuit approach: 3 years, Wis. Stat.
Ann. §§ 893.54, 893.93.
Wyoming: 90 days versus 2 years.
Administrative review approach: 90 days, Wy.
Admin. Code 206.0002.7 § 7 (incorporating 34 C.F.R.
§ 300.516).
Independent lawsuit approach: 2 years, Wyo. Stat.
Ann. § 1-3-115.

